                 U.S. Department of Labor
                Office of Inspector General
Welfare-to-Work Competitive Grants Postaward Survey Results




         Additional Policy and Technical Assistance
        Will Help Achieve WtW Legislative Intent and
              Improve Program Administration




                                 Report Number: 05-99-008-03-386
                                 Report Date: March 24, 1999
                                                 TABLE OF CONTENTS


                                                                                                                            Page

ACRONYMS/ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii

PRINCIPAL CRITERIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . viii

AUDIT OBJECTIVES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ix

SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . x

FINDINGS AND RECOMMENDATIONS

          1. Inadequate Internal Controls Govern Grantee
             Financial and Management Information Systems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                 a. Inadequate Internal Controls Over Cost Limitations . . . . . . . . . . . . . . . . . . . . 1
                 b. Incomplete/Inadequate Management Information Systems . . . . . . . . . . . . . . . 2
                 c. Inadequate Internal Controls Over Financial Reporting . . . . . . . . . . . . . . . . . . 3

          2. WtW Grantee Policies and Procedures Need Strengthening . . . . . . . . . . . . . . . . . . . . 6
                a. Lack of Formal Agreements with TANF Agencies . . . . . . . . . . . . . . . . . . . . . 6
                b. Lack of Formal Eligibility Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
                c. Lack of Written Policies and Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          3. Grantee Operations Contain Potential Violations
             of the Fair Labor Standards Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          4. Grantees Need to Comply with Welfare-to-Work’s
             “Work-First” Requirement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

          5. Proposed Use of Grant Funds for Business Start-Up Operations
             and Venture Capital Appears Improper . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

          6. Single Unit Price Billings Circumvent WtW’s
             Administrative Cost Limitation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                                                                i
                                                                                                                             Page
APPENDICES

     1. Overview of Principal Criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

     2. WtW Competitive Grantees Included in Postaward Surveys . . . . . . . . . . . . . . . . . . . . . . 26

     3. Suggested Areas for Inclusion in Grantee Written Policies and Procedures . . . . . . . . . . . 27

     4. Findings Matrix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

     5. Complete Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32




                                                                ii
         ACRONYMS/ABBREVIATIONS


DHHS         Department of Health and Human Services

DOL          Department of Labor

ETA          Employment and Training Administration

FLSA         Fair Labor Standards Act

JTPA         Job Training Partnership Act

MIS          Management Information System

OJT          On-the-Job-Training

OMB          Office of Management and Budget

PRWORA       Personal Responsibility and Work Opportunity Reconciliation
             Act

QFSR         WtW Competitive Grant Cumulative Quarterly
             Financial Status Report

TANF         Temporary Assistance for Needy Families

WtW          Welfare-to-Work




                       iii
                                                  EXECUTIVE SUMMARY

Background, Scope and Objectives

The Balanced Budget Act of 1997 authorized the Secretary of Labor to provide Welfare-to-Work
(WtW) grants to states and local communities to move hard-to-employ welfare recipients into
unsubsidized jobs and economic self-sufficiency. The Act authorized $3 billion for WtW grants in fiscal
years 1998 and 1999. Of this amount, approximately 75 percent, or $2.2 billion, is being distributed
by formula to the states and the remaining 25 percent, or $711.5 million, will be awarded through a
competitive grant process. The competitive grants are designed to encourage communities to develop
innovative, results-oriented ways to help long-term welfare recipients gain a secure foothold in the labor
market. The first round of $199 million (announced on
May 27, 1998) was awarded to 51 competitive grant recipients. The Employment and Training
Administration (ETA) administers the WtW program at the Federal level.

We developed a postaward survey guide to assess program implementation for 35 grants awarded
during the first round of WtW competition. Our overall objective was to determine whether the
grantees had implemented and/or adequately planned for the financial management, program delivery
and internal control systems necessary to account for Federal funds and achieve the purposes of their
grants. We issued management letter reports to the individual grantees, with copies to ETA, so that
corrective actions could be promptly initiated. The ETA has been attentive and responsive to the issues
raised during the course of our audit fieldwork.

Results

This report summarizes the results of the postaward surveys of the 35 first-round competitive
grantees. Overall, we found the grantees that we reviewed possessed the capability to adequately
deliver their WtW competitive grant programs. We have findings regarding financial management
systems, policies and procedures and programmatic compliance as follows:
                            Summary Matrix of Findings (Appendix 4)
   Financial Management                    Policies and Procedures                            Programmatic Compliance
               Finding 1                              Finding 2                      Finding 3       Finding 4      Finding 5    Finding 6
                             Inadequate                                                Potential                      Start-up    Single Unit
 Inadequate    Incomplete/                 Lack of
                               Internal                 Lack of         Lack of      Violations of   Non-complia    Costs and       Billings
   Internal    Inadequate                  Formal
                               Controls                 Formal          Written        the Fair      nce with the     Venture    Circumvent
   Controls    Management                 Agreement
                                Over                   Eligibility    Policies and       Labor       “Work-First”     Capital    Administrativ
 Over Cost     Information                with TANF
                              Financial               Procedures      Procedures      Standards      Requirement     Appears        e Cost
 Limitations    Systems                   Agencies
                              Reporting                                                   Act                        Improper     Limitations

    22             11           16           14           12              27              3               5             2             1

   63%            31%          46%          40%          34%              77%            9%             14%            6%            3%




                                                                     iv
The matrix shows the number of grantees related to each finding and the percentage of the 35 grantees
surveyed associated with each finding. We believe immediate action is necessary to ensure adequate
internal controls govern grantee financial and management information systems and grantee policies and
procedures.

Also, we believe certain programmatic issues identified during our fieldwork are at the very heart of
WtW program intent -- compliance with the Fair Labor Standards Act (FLSA), adherence to the
WtW work-first requirement, use of WtW funds for business start-up operations/venture capital, and
allowability of single unit price billings. Because these issues pertain to requirements that also apply to
the formula program -- a program three times the size of the competitive grant set-aside -- the potential
impact of our findings is magnified. We believe immediate action should be taken to provide definitive
guidance to achieve WtW legislative intent and improve program administration.

Summary Recommendations

We recommend that the Assistant Secretary for Employment and Training:

        C       issue policy guidance and instructions and provide technical assistance which fully
                addresses WtW’s cost limitations and their applicability to the financial reporting
                requirements,

        C       advise WtW grantees to develop formal written Memoranda of Understanding with
                local TANF agencies,

        C       revise the WtW regulations to specifically include the minimum wage provisions of the
                FLSA,

        C       issue specific policy guidance and instructions which fully define and illustrate WtW’s
                work-first requirement,

        C       issue policy that prohibits the use of WtW funds as start-up costs for businesses and
                capital ventures, and

        C       require WtW grantees to report Federal expenditures on an actual cost basis
                against the prescribed cost categories on the Quarterly Financial Status Report.

Agency Response and Auditor’s Conclusions

The Assistant Secretary for Employment and Training stated the agency was pleased with our overall
assessment that the grantees reviewed possess the capability to deliver their WtW programs. He also
stated that the postaward surveys were helpful in identifying issues needing attention. However, the

                                                     v
agency disagreed with our assertion that ETA’s policy guidance suggests the number of work hours
established by a grantee should be consistent with local TANF work requirements. The agency’s
position on required work hours was further clarified by stating: “The Office of Welfare-to-Work has
been careful not to restrict, or in any way define, the number of hours of work required under
the Welfare-to-Work program.” ETA indicated,
“. . . in the interests of coordination and recruitment of participants from TANF, grantees should
be aware of TANF work requirements and take them into account when developing their
programs.” The remainder of ETA’s response was related to corrective actions being planned or
implemented.

We concur with the corrective actions being planned which address our recommendations. Therefore,
we consider all of our recommendations, with two exceptions, to be resolved but not closed, pending
implementation of corrective action plans. The exceptions are the recommendations to include FLSA
wage provisions in approved grant agreements and defining work-first requirements. We continue to
believe that the Solicitation for Grant Applications and the Special Clauses and Conditions of the grants
should contain FLSA requirements including minimum wage provisions.

Additionally, we believe that ETA’s statement quoted above and the policy guidance do suggest to the
reader that work hours for WtW be consistent with the work requirements established by the TANF
agency. Therefore, we continue to emphasize a need to clarify requirements with specific policy
guidance and instructions to fully define and illustrate WtW’s work-first requirement and to incorporate
into program guidance a suggested number of work hours as the basis for meeting the work-first
requirement for WtW purposes. ETA’s response states, “. . . the Department will issue additional
policy guidance which clarifies and illustrates (but does not define or prescribe a minimum
number of hours) WtW work-first requirement.” ETA’s response does not provide sufficient
information to permit us to resolve our recommendations. We will carefully evaluate whether the
corrective actions taken by ETA fulfill the intent of our recommendations.




                                                   vi
                                          BACKGROUND

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (PRWORA)
was enacted August 22, 1996. The PRWORA, a comprehensive welfare reform bill established the
Temporary Assistance for Needy Families (TANF) program to supersede the Aid to Families with
Dependent Children (AFDC), the Job Opportunities and Basic Skills Training and the Emergency
Assistance programs. The TANF provisions substantially changed the nation’s welfare system from
one in which cash assistance was provided on an entitlement basis to a system in which the primary
focus is moving welfare recipients to work and promoting family responsibility.

On August 5, 1997, the President signed the Balanced Budget Act of 1997. This legislation amended
certain provisions of the Social Security Act and authorized the Secretary of Labor to provide Welfare-
to-Work (WtW) grants to states and local communities for transitional employment assistance to move
the hard to employ TANF welfare recipients into unsubsidized jobs and economic self-sufficiency. The
Balanced Budget Act authorized $3 billion for WtW grants in fiscal years 1998 and 1999.
Approximately 75 percent, or $2.2 billion, will be distributed by formula grants to the states with 85
percent being passed through by the states to Service Delivery Areas established under the Job
Training Partnership Act (JTPA) program. Approximately 25 percent, or $711.5 million will be
distributed through a competitive grant process which is designed to encourage communities to develop
new, results-oriented ways to help long-term welfare recipients gain a secure foothold in the labor
market.

The Employment and Training Administration (ETA) published an Interim Final Rule in the Federal
Register on November 18, 1997, implementing the Welfare-to-Work grant provisions
of Title IV, Part A of the Social Security Act, as amended by the enactment of the Balanced Budget
Act of 1997. The first round of $199 million (announced on May 27, 1998) was
awarded to 51 competitive grant recipients.

A majority of first round competitive grants were signed on June 30, 1998, with the period
of performance beginning July 1, 1998. Performance periods of the grants range between
18 and 30 months and must be expended within 3 years.

Training for the first round of competitive grantees was held July 7 - 9, 1998. A second request for
grant applications was published on April 15, 1998, with responses due by July 14, 1998.
The second round of competitive grants were awarded on November 20, 1998, and totaled
$273 million for 75 projects in 44 states, which leaves approximately $239 million available for
additional awards.




                                                   vii
                                        PRINCIPAL CRITERIA

The principal criteria for the WtW program is 20 CFR Part 645, WtW Grants Interim Rule, published
November 18, 1997. ETA plans to issue final regulations. Some of the major provisions of this
program include the work-first philosophy, how funds must be spent and eligibility under the 70/30
percent provisions. The following is an overview of the major
Federal requirements of the program. (See Appendix 1 for more detailed information.)

        C          Purpose of the WtW Program
        C          Work-first
        C          Funds Spent
        C          70 Percent Eligibility Provision
        C          30 Percent Eligibility Provision
        C          Mechanisms Must be in Place to Determine Eligibility
        C          Allowable Activities
        C          Job Placement Contracts or Vouchers
        C          Administrative Costs
        C          Indirect Costs
        C          Information Technology Costs

Besides the program requirements identified in 20 CFR Part 645, there are a number of additional
administrative and program guidelines. These additional standards vary as to the type of entity receiving
the grant. The following table provides an overview of the Office of Management and Budget (OMB)
Circulars and Department of Labor (DOL) regulations that are applicable.


                        OMB Circulars                                                Regulations
                                                                 Uniform
 Nature of              Federal Audit        Federal Cost        Administrative      Department
 Grantee                Requirements         Principles          Requirements        of Labor

    State/Local                              A-87-Amended        A-102-Amended
   Governments                                  8/29/97              8/29/97          29 CFR Part 97

    Institutions                                   A-21               A-110
                             A-133
     of Higher                                    Revised            Amended          29 CFR Part 95
                             Revised
     Education                                    5/19/98            8/29/97
                             6/24/97
   Private Non-                               A-122-Revised      A-110-Amended
       Profit                                    6/1/98              8/29/97          29 CFR Part 95




                                                    viii
AUDIT OBJECTIVES

Our overall objective was to perform a postaward survey to determine whether the grantees had
implemented and/or adequately planned for the financial management, program delivery systems and
internal controls necessary to account for and safeguard Federal funds and achieve the purpose of the
grant.

Our subobjectives were to determine whether:

            C financial management systems and internal controls are adequate to provide reasonable
              assurance that Federal funds would be adequately safeguarded and
              that expenditures are reasonable, necessary and allowable under the grant,

            C planned program management and delivery systems are adequate to achieve the
              purpose of the grant,

            C planned financial and programmatic reporting systems can be relied upon to produce
              accurate, complete and timely reports that are traceable to source documentation, and

            C systems/controls are in place and/or being developed to ensure compliance
              with applicable laws, regulations and program requirements.

We believe these postaward survey reviews provide an early assessment of grantee operations and can
be used as a positive basis to identify problems and avoid future administrative findings and/or
questioned costs.




                                                  ix
                                 SCOPE AND METHODOLOGY

During July 1998, OIG developed a postaward survey guide for the first round of competitive grants.
The guide was designed to aid auditors in assessing the grantees financial and performance systems.
The survey guide was tested in August at three grantees: The County of Union, Elizabeth, New Jersey;
Resources for Human Development, Philadelphia, Pennsylvania; and DePaul University, Chicago,
Illinois.

After the initial three pilot surveys were completed, a decision was made to survey other competitive
grantees. Subsequently, an additional 32 grantees, which were selected on a judgmental basis, were
surveyed across the nation. Fieldwork for the 32 additional grantees
was conducted from September 1998 through January 1999. (See Appendix 2 for a listing
of the 35 grantees reviewed.)

In total, we surveyed 35 of the 51 grantees receiving first round competitive grants. The
35 grants represented 74 percent of the $199,057,074 awarded. During our survey, we determined
whether the grantees had adequately planned for or implemented operational
internal control structures governing grant assets and adequate financial and programmatic systems.
We also evaluated the grantees’ capacity to properly administer the WtW competitive grants in
accordance with regulatory requirements. Our examinations were performed in accordance with
Government Auditing Standards.




                                                   x
                            FINDINGS AND RECOMMENDATIONS

1.      Inadequate Internal Controls Govern Grantee Financial and Management Information
        Systems

We determined that overall, the grantees have the capability, including the necessary financial
management systems, to administer their WtW competitive grants. However, their financial
and management information systems lack the internal controls necessary to comply with WtW’s cost
limitations and financial reporting requirements. If grantees do not develop the proper internal controls
and tracking systems, they will not be able to produce accurate, complete and timely reports that are
traceable to source documentation.

Several grantees advised us that they have not modified existing management information systems or
purchased new or supplementary software to augment existing systems for the
WtW program because ETA has not yet issued participant reporting requirements for WtW
competitive grantees. The delay in the issuance of participant data collection and reporting
requirements may have an adverse effect on the Federal partners’(DHHS/DOL) ability to measure the
actual performance of competitive grantees.

We found that most of the grantees were in the early stages of planning and implementing
their WtW program. Only 17 of the 35 grantees we surveyed were operational at the time of
our review. Grantees were in the process of hiring staff, developing working relationships with
local TANF agencies, complying with local and state review and approval requirements, finalizing
agreements with partners and subcontractors, developing operating procedures, and beginning the
process of identifying and recruiting WtW applicants. The grantees slow start
also contributed to the delay in developing financial and management information systems.

Unless grantees implement the recommendations made as a result of our postaward surveys, they are at
risk of being unable to comply with WtW’s cost limitations and financial reporting requirements. A
discussion of our findings and recommendations in the areas of (a) cost limitations, (b) management
information systems, and (c) financial reporting requirements follows.

a.      Inadequate Internal Controls Over Cost Limitations

WtW competitive grantees’ financial and accounting systems lack the internal controls
necessary to comply with WtW’s cost limitations. Their financial management systems
need to be modified to control costs applicable to the 15 percent administrative cost
limitation and the 70 percent minimum/30 percent maximum cost limitations. These
financial management systems also need to be modified to track and record costs by
activity and grant budget categories.



                                                    1
The WtW regulations at 20 CFR 645.211(a) state that, “At least 70 percent of the WtW funds
allotted to or awarded to an operating entity . . . must be spent to benefit hard-to-employ
individuals. . . .” Section 645.211(b) states,

                “Not more than 30 percent of the WtW funds allotted to or awarded to an
                operating entity . . . may be spent to assist individuals with long-term welfare
                dependence characteristics . . . If less than 30 percent of the funds is spent to
                assist individuals with long-term welfare dependence characteristics, the
                remaining funds shall be spent to benefit hard-to-employ individuals pursuant to
                paragraph (a). . . .”

Section 645.235 (a)(2) states that, “The limitation on expenditures for administrative purposes
under the WtW competitive grants will be specified in the grant agreement but in no case shall
the limitation be more than fifteen percent (15%) of the grant award.”

We found that the majority of WtW grantees reviewed did not have the internal controls necessary to
ensure compliance with the above cost limitations. Specifically, we found that
their accounting systems were not set up to record and track direct, indirect and allocated costs
for the appropriate cost categories. In a limited number of instances, we found that the grantee did not
have an accurate understanding of the 70 percent minimum/30 percent maximum cost limitations.
These grantees mistakenly believed that the 70 percent minimum/30 percent maximum applied to the
number of participants enrolled under the grant and not to total Federal expenditures.

We also found that grantees had not developed subgrant budget formats and financial reporting
requirements that would ensure that subgrantee accounting systems had the internal controls necessary
to comply with these cost limitations. Since the WtW cost limitations apply to total Federal
expenditures, the inability of subgrantees to record, track, document and report costs would adversely
affect the grantees’ ability to report total Federal expenditures that are accurate and complete.

b.      Incomplete/Inadequate Management Information Systems

WtW competitive grantees have not been provided participant data collection and reporting
requirements. As a result, several grantees have not established either a participant tracking system or
a participant database. A grantee’s inability to collect performance data may impair ETA’s ability to
effectively measure program performance.

The WtW regulations at 20 CFR 645.240 require the Department of Labor (DOL) to issue instructions
and formats for financial reporting and the Department of Health and Human Services (DHHS) to issue
instructions for participant reporting. Section 645.515 also authorizes DOL to establish supplemental
reporting requirements for competitive grant recipients.



                                                    2
On June 24, 1998, ETA issued Field Memorandum Number 38-98, entitled “Welfare-to-Work
Reporting.” The purpose of this field memorandum was to transmit WtW financial reporting formats
and corresponding instructions for both formula and competitive WtW grants, and to set forth Regional
Office and National Office roles in the reporting process. This reporting format and instructions were
subsequently incorporated into existing grant agreements by a unilateral grant modification effective July
1, 1998.

On October 29, 1998, DHHS published in the Federal Register an Interim Rule that specifies the WtW
reporting requirements for states and Indian Tribes. These reporting requirements are restricted to
WtW formula grantees. The Interim Rule further stated that the DOL will specify participant reporting
requirements applicable to all individuals enrolled in the WtW competitive grant program. The data will
be reported to DOL by the grantee unless the states agree to compile and transmit the data to DHHS.
DHHS and DOL will develop a common data format and specifications to facilitate this complementary
reporting. To date, the DOL has not issued specific participant reporting requirements
applicable to WtW competitive grant programs.

We found that several grantees had not established either a participant tracking system or
a participant database for the WtW program. In some cases, the grantee was using an electronic
spreadsheet to track participant progress through the program. However, this
may not be sufficient to meet WtW data reporting requirements when program reporting requirements
and participation increases.

Several grantees have decided to wait for ETA to provide participant reporting requirements before
they modify existing management information systems or purchase new or supplementary software to
augment existing systems. We also found that some of the grantees needed to update their existing
written procedures to address WtW requirements.

c.      Inadequate Internal Controls Over Financial Reporting

Some of the WtW competitive grantees we examined (16 of 35) did not have internal controls in place
to produce accurate, complete and timely reports of costs for program activities which are traceable to
source documentation. Grantee accounting systems were not set up to track and record direct,
indirect and allocated costs by program activity.

Section 645.240(a) of the WtW regulations states that, “. . . All States and other direct grant
recipients shall report pursuant to instructions issued by DOL (financial data) and by DHHS
(participant data).”




                                                    3
ETA’s Field Memorandum No. 38-98, dated June 24, 1998, transmitted WtW financial reporting
formats and corresponding instructions for both formula and competitive grants to the ETA regional
offices. This field memorandum included OMB’s approval of the WtW reporting requirements as well
as roles and responsibilities assigned ETA’s national and regional offices.

ETA has developed a WtW monitoring guide to be used by Federal staff in monitoring WtW
competitive and formula grants. This monitoring guide includes provisions for reviewing financial
management and accounting systems as well as financial reporting.

WtW grantees will report the required data elements electronically via the Internet on a WtW
Competitive Grant Cumulative Quarterly Financial Status Report (QFSR). The QFSR has two
sections which require financial information. The first section requires grantees to report Federal
expenditures against WtW’s cost limitations. Federal expenditures are to be reported based on the 15
percent administrative cost limitation and the 70 percent minimum/30 percent maximum cost limitations.
This section also requires that Federal Technology and Computerization expenditures, which the
regulations exclude from being charged to the administrative cost category, be reported as a single line
item.

The second section of the QFSR requires that expenditures be reported by program activity. These
activities include such items as community services, work experience, job creation employment wage
subsidies, on-the-job training, job readiness services, job placement services, post-employment
services, job retention services and supportive services. ETA’s reporting instructions do not contain
either definitions or examples of individual program activity categories. ETA advised WtW
competitive grantees, at their initial training session in July 1998, that they should develop definitions for
each activity category that are consistent with the definitions in their State’s TANF plan.

Recommendations:

We recommend that the Assistant Secretary for Employment and Training:

                 S       issue policy guidance and instructions which fully explain the 70 percent
                         minimum/30 percent maximum WtW cost limitations,

                 S       monitor grantee operations to ensure that the appropriate internal controls are in
                         place at both the grantee and subgrantee levels to ensure that financial reporting
                         systems can be relied upon to produce accurate, complete and timely reports
                         that are traceable to source documentation,




                                                      4
                S       issue interim guidance to WtW competitive grantees until specific participant
                        reporting requirements can be published in the Federal Register. This guidance
                        should include participant data collection requirements and establish an effective
                        date for the collection of participant data for reporting purposes,

                S       conduct onsite reviews of grantee financial and management information
                        systems to ensure that grantees develop the internal controls necessary to
                        report financial information on an accurate, complete and timely basis, and

                S       provide immediate technical assistance to any WtW grantee that lacks the
                        necessary internal controls to comply with WtW’s financial reporting
                        requirements.

Agency Response and Auditor’s Conclusions

ETA outlined its plans to provide technical assistance through financial procedures training in April,
based on a new financial management technical assistance guide (TAG). The TAG will address cost
limitations, internal controls over and formulating systems for financial and performance activities, and
reporting.

Also, ETA plans to issue additional policy guidance which more fully explains the 70/30 percent cost
limitations and reporting requirements. The agency’s plans include monitoring the grantees to assess
whether their reporting systems are in place and whether data is traceable to source documentation.
Next month, ETA is planning to submit to OMB participant reporting requirements. When approved,
the participant reporting requirements will be covered in orientation and training sessions.

ETA’s planned corrective actions are responsive to our recommendations which are considered
resolved, but not closed, pending receipt of reported implementation of ETA’s plans.




                                                     5
2.      WtW Grantee Policies and Procedures Need Strengthening

The large majority of grantees (as many as 27 of 35) have not reduced to writing either their internal or
external operating procedures for the WtW program. Most grantees have established operating
procedures covering their general operations. However, these procedures have not been modified to
address their additional responsibilities under the WtW program. The formalization of operating
procedures, including duties and responsibilities, is especially important when they address their
relationship with outside agencies that will provide major services required under the WtW regulations.

a.      Lack of Formal Agreements with TANF Agencies

WtW grantees have developed informal relationships with local TANF agencies that do
not fully define the roles and responsibilities of each agency. Good internal control practices dictate
that, since TANF information is necessary to determine the eligibility of every WtW participant,
identifying roles and responsibilities as well as establishing accountability is critical to the flow of
information as well as making an accurate eligibility determination.

These informal relationships and procedures could lead to misunderstandings for grantees in complying
with WtW eligibility requirements. Therefore, it is in the grantee’s best interest to reduce their
relationship with the TANF agency to written form so that each agency’s roles
and responsibilities can be clearly defined.

The WtW regulations at 20 CFR 645.214 (a) state that the grantee is responsible for
ensuring that WtW funds are spent only on individuals eligible for WtW projects. Section 645.214 (b)
states that, “The operating entity must ensure that there are mechanisms in place
to determine WtW eligibility for individuals who are receiving TANF assistance. . . .”

Section 645.214 (b)(1) states that these mechanisms, “Must include arrangements with the TANF
agency to ensure that a WtW eligibility determination is based on information, current at the
time of the WtW eligibility determination, about whether an individual is receiving TANF
assistance . . . the length of receipt of TANF assistance . . . and when an individual may become
ineligible for assistance. . . .”

The WtW regulations allow the grantee and the local TANF agency to determine the scope of their
working relationship, including developing operating procedures and defining roles and responsibilities.
Since receipt of TANF assistance will be the most critical eligibility criterion in the majority of cases, it
is essential that the TANF agency be the source of information about whether an individual is receiving
TANF assistance, the length of such assistance, and the applicable time limits governing such
assistance.




                                                      6
Because of the importance of TANF data to the eligibility determination process and the grantees’
necessary reliance on the TANF agency for such data, the lack of written agreement may expose the
grantee to questioned costs, if the information provided is in error.

b.      Lack of Formal Eligibility Procedures

WtW grantees have developed informal procedures for determining eligibility. However, these
procedures do not fully identify what information will be collected to determine eligibility, how eligibility
information will be collected, and what procedures will be followed to determine an applicant’s WtW
eligibility.

The WtW regulations state that the grantee is accountable for ensuring that funds are spent on
individuals who are eligible for the program. The regulations also acknowledge that the grantee will
need the assistance of outside parties to determine WtW eligibility. The eligibility criteria may include a
multitude of factors, such as the applicant’s status of TANF assistance, barriers to employment,
characteristics associated with long-term welfare dependency, substance abuse and school achievement
levels. Therefore, the grantee will need to deal with a variety of agencies and individuals to gather
information and document their eligibility determination.

ETA has developed a WtW monitoring guide to be used by Federal staff in monitoring competitive and
formula grants. This monitoring guide includes provisions for reviewing policies and procedures
applicable to the eligibility determination process. These provisions also include a requirement to
review a sample of participant records as well as the grantee’s working relationship with the local
TANF agency.

We found that several of the grantees need to develop formal written eligibility determination
procedures. These written procedures should include instructions for the completion of intake,
application and eligibility determination forms. As a direct result of our onsite reviews, some grantees
revised their eligibility forms and eligibility requirements. These changes were made to meet the
technical legislative amendments regarding eligibility of non-custodial parents.

c.      Lack of Written Policies and Procedures

We found that the grantees were in the early stages of planning and implementing their competitive
grants. Generally at the time of our visits, the grantees’ programs were not yet operational or only a
few WtW participants were enrolled.

The most consistent discrepancy noted among the grantees surveyed was that WtW written policies
and procedures had not been fully developed or were in the early stages of development. We found
that a majority of the grantees had existing policies and procedures, but they did not address Federal



                                                      7
requirements. Our review identified that 27 of 35 grantees (77 percent) did not have written
procedures for WtW financial and performance operations.

Good accounting practices and internal controls require written policies and procedures; for instance,
29 CFR 95.21(b) states:

                “. . . financial management systems shall provide . . . (6) Written procedures for
                determining the reasonableness, allocability and allowability of costs in
                accordance with the provisions of the applicable Federal cost principles and the
                terms and conditions of the award.”

Written procedures are particularly important to a program where new staff is being hired and many of
the activities are contracted to subrecipients. It is important to have written policies and procedures to
gain an understanding of the pertinent program requirements and to serve as a standard for program
operations.

Supplements to current policies and procedures are necessary to help grantees establish more effective
and efficient WtW operations and results. WtW procedures should address the principal requirements
and provisions found in the WtW Interim Rule and related Federal requirements. To assist several
grantees during our visits, we provided them with a binder outlining a number of areas that should be
included in their policies and procedures. (See Appendix 3 for some of the areas that should be
considered for written policies and procedures.)

We also advised several grantees that related OMB circulars and Federal regulations should be
included as appendices to their written policies and procedures. Combining the materials in one binder
provides an easy reference for most issues related to WtW program and Federal requirements.
Written procedures should benefit staff working on the WtW program.

Recommendations:

We recommend that the Assistant Secretary for Employment and Training:

                S       issue specific policy guidance and instructions that fully delineate a grantee’s
                        responsibilities concerning developing a working relationship with the local
                        TANF agency,

                S       advise WtW grantees to develop written Memoranda of Understanding with
                        local TANF agencies that fully outline their specific roles and responsibilities
                        under the WtW program,




                                                     8
               S       strongly encourage grantees to develop formal written eligibility procedures
                       which fully explain specific roles and responsibilities of all parties involved in the
                       grantee’s eligibility determination process, and

               S       issue a Technical Assistance Guide to assist grantees in developing adequate
                       written policies and procedures for the WtW program. Adequate policies and
                       procedures should include both financial and performance requirements.

Agency Response and Auditor’s Conclusions

ETA responded that it has scheduled along with HHS, a series of TANF/WtW conferences to address
procedural problems (including eligibility) that exist between the two programs. Plans are to issue
similar guidance by both programs. ETA anticipates that development of formal Memoranda of
Understanding will be based on this guidance. ETA will encourage grantees to establish formal written
procedures for specific topics and will provide guidance through the new TAG and individual policy
issuances.

ETA’s planned corrective actions are responsive to our recommendations which are considered
resolved, but not closed, pending receipt of reported implementation of ETA’s plans.




                                                    9
3.      Grantee Operations Contain Potential Violations of the Fair Labor Standards Act

Three grantees substituted stipends, assistance/points and voluntary/non-paid work activities for wages
in possible violation of the minimum wage provisions of the Fair Labor Standards Act (FLSA). In two
of the three instances identified, these activities were included in the approved grant agreement. These
compensation arrangements appear to violate the FLSA and may result in a liability for payment of
back wages to participants. To properly comply with FLSA requirements, grantees may be required to
restructure their grant budgets to ensure that the minimum wage is paid, resulting in a higher cost per
participant than originally planned, thus reducing the number of participants that can be served under the
grant.

The Personal Responsibility and Work Opportunity Reconciliation Act (PRWORA) is silent on the
question of whether minimum wage protection applies to participants in work programs under TANF.
In May 1997, the Department of Labor issued a policy announcement explaining that the PRWORA
does not exempt work participants from the FLSA and that Federal employment laws such as the
FLSA apply to welfare recipients as they apply to other workers. This guidance provides that welfare
recipients engaged in work activities are subject to the minimum wage requirements.

We noted that the WtW regulations, grant assurances and the approved grant agreements do not have
specific language that fully addresses the minimum wage provisions of the FLSA. We also noted that
the ETA’s grant review and approval process did not identify these potential violations of the FLSA.

We identified what amounted to a voluntary work program at a multi-site WtW grantee serving
9 states with 27 local sites. At each of the four sites visited, WtW participants were placed in a non-
paid or voluntary work activity in order to meet WtW’s mandatory “work-first” requirement. Some of
the WtW participants have been enrolled in this voluntary/non-paid work activity since September
1998. This voluntary work activity may be in violation of the FLSA minimum wage requirements.

At the four local sites we visited, this grantee offered a minimal number of hours of unpaid/voluntary
work activity per week in addition to vocational training. For example, at two local sites the
participants worked two to five hours per week. The vocational training was designed to meet an
allowable exception to the local TANF agency’s work requirements for TANF recipients.

The second grantee’s approved project proposal included stipends in lieu of wages for its work
experience programs. We found that the budgeted amounts for stipends were not sufficient to comply
with the FLSA minimum wage requirements. This issue was discussed with the area FLSA
representative, who determined that the grantee should pay the minimum wage in its work experience
programs.




                                                   10
At a third grantee, we found that the WtW participants enrolled in work experience were receiving
assistance/points in lieu of wages. The budget narrative of the approved project proposal states the
following regarding the payment of participant wages and fringe benefits: “Rather than paychecks
and fringe benefits (because this is work experience), participants will have, ‘passbooks,’ which
track earned points. Points may be exchanged for items in the ‘store;’ choices will include food
stuffs, gift certificates, soft goods, and hard goods. Funds will be used to supplement business
and industry donations.”

This grantee believed the WtW participants were receiving the equivalent of the minimum wage in the
form of assistance/points. The grantee also stated that, “In the State of Georgia, the ‘workfare’
participant is considered an employee of the State, not of the [grantee]. Thus, the total dollar
amount of the trainee’s assistance divided by the minimum wage yields the maximum number of
hours the participant can receive work experience.”

We disagree with the grantee’s interpretation. Welfare recipients who are enrolled in state workfare
programs which require recipients to work in return for their welfare benefits must be compensated at
the minimum wage if they are classified as “employees” under FLSA’s definition. Once welfare
recipients are enrolled in the WtW program, they are also subject to the minimum wage provisions of
the FLSA. The basic issue is who is the employer. Since the welfare recipients are enrolled in the
grantee’s WtW work experience program, we believe that they are not state employees and that the
WtW program should adhere to the minimum wage provisions of the FLSA.

Recommendations:

We recommend that the Assistant Secretary for Employment and Training:

       S identify all WtW competitive grantees that are not paying the established minimum wage and
         obtain a written decision from the area FLSA representative concerning the grantee’s
         compliance with the minimum wage provisions of the FLSA,

       S issue specific policy guidance to grantees concerning the minimum wage provisions of the
         FLSA, and

       S revise the grant application and grant review process to ensure that the minimum wage
         provisions of the FLSA are included in any approved grant agreement.

Agency Response and Auditor’s Conclusions

ETA reports it has discussed the Fair Labor Standards Act (FLSA) problems identified in our report
with DOL’s Wage and Hour Division. The grantees with FLSA problems have been contacted via a
conference call with the Wage and Hour Division to outline corrective actions.

                                                  11
WtW’s monitoring guide is designed to address minimum wage issues through scheduled monitoring
visits which are currently under way. Wage and Hours Division will be consulted, if problems are
found.

ETA further states that their grant transmittal letter contains bold underlined language specifically
mentioning adherence to all Federal statutes including the FLSA. DOL’s publication, “How
Workplace Laws Apply to Welfare Recipients” has been included on the WtW website. Wage and
Hour provided an overview of the FLSA requirements during the orientation training for the round two
competitive grantees. ETA believes the FLSA issues which occurred in 3 of the 35 grantees surveyed
are exceptions to an otherwise well-informed group. Accordingly, ETA does not expect FLSA
problems related to the formula grantees which have experience with DOL programs and requirements.
ETA believes that the current regulatory language on the need to adhere to Federal statutes and the
activities and products being planned are sufficient regarding FLSA requirements.

We concur with the corrective actions being taken by ETA and find these recommendations resolved,
but not closed, except for revising the grant solicitations and agreements. We believe that to further
ensure adherence to the FLSA requirements, it is appropriate that the Solicitation for Grant
Applications (SGA) and the Special Clauses and Conditions of the grants should contain FLSA
requirements including minimum wage provisions.




                                                  12
4.      Grantees Need to Comply with Welfare-to-Work’s “Work-First” Requirement

At three grantees, we found training was either planned or provided prior to participation in
employment activities, which is contrary to WtW’s “work-first” concept. At a fourth grantee, that
operated multiple sites, four of the sites we visited offered voluntary or non/paid work activities, raising
a question as to whether these activities meet the minimum number of hours to constitute work for
purposes of WtW.

The Department of Labor (DOL) has been very clear in outlining the legislative intent of the WtW
program. WtW is unique among employment and training programs in that it requires an individual to
be placed in subsidized or unsubsidized work activities prior to receiving education and skills training
related to the job. Previous programs, such as the Job Training Partnership Act (JTPA) of 1982, as
amended, and its predecessor, the Comprehensive Employment and Training Act (CETA) of 1973,
emphasized training and supportive services followed by job placement. However, the WtW program
requires participants be engaged in employment-based activities prior to receiving post-employment
services.

The ETA announced the first solicitation for grant applications for WtW competitive grants in the
Federal Register on December 30, 1997. ETA’s solicitation stated that competitive grant projects
would be expected to achieve the overall purpose of the WtW program, which is, “ To provide
transitional assistance which moves welfare recipients into unsubsidized employment providing
good career potential for achieving economic self-sufficiency.” ETA’s solicitation also states that:

        “This transitional assistance is to be provided through a “work-first” service strategy in
        which recipients are engaged in employment-based activities. Grant funds may be used
        to provide needed basic and/or vocational skills training as a post-employment service in
        conjunction with either subsidized or unsubsidized employment.”

Section 645.220 of the WtW regulations provides that basic educational skills training and occupational
skills training are allowable activities, but only as post-employment services. The narrative discussion of
the meaning of this section states that:

        “While the legislation does not permit stand-alone training activities independent of a
        job, allowing them as post-employment activities only while the participant is working in
        a subsidized or unsubsidized job reflects the basic “work-first” thrust of the legislation,
        while recognizing the critical importance of continuous skills acquisition and lifelong
        learning to economic self sufficiency.”

One grantee we visited assumed that all TANF recipients referred by the local TANF agency had been
placed by that TANF agency and, therefore, met the WtW’s “work-first” requirement. The grantee
obtained no evidence or assurance that the “work-first” requirement was being met. For

                                                     13
example, the local TANF agency requires TANF recipients to either work at least 25 hours per week
or conduct 40 job searches per week to retain their TANF benefits. If the TANF recipient conducted
40 job searches per week in lieu of working 25 hours per week, s/he would meet the local TANF
agency’s work requirements, but not WtW’s “work-first” requirement.

Basic educational skills training and occupational skills training are allowable activities as post-
employment services, but not allowable as a stand-alone activity. However, at a second grantee, the
description of several of the grantee’s work experience programs disclosed that training appears to be
given prior to finding the participants employment or enrolling them in a work activity. A third grantee
had a contract with a private-for-profit employer which called for preemployment training, which
included an initial 8 week classroom instruction and orientation phase followed by an on-the-job-
training (OJT) phase for those trainees found capable. In both situations, the length and depth of the
training appears to go beyond the type of job readiness orientation or employment assessment allowed
by the WtW regulations and, therefore, does not pass the “work-first” test.

Minimum Hours of Work

The welfare reform bill, PRWORA, included a requirement that 25 percent of all TANF families and
75 percent of two-parent families have an adult engaged in work activities in FY 1997 (families with no
adults were exempted). States were given the option of exempting single parents of children under one
year of age from the work requirement. In order to be counted towards the work participation rate, a
single parent is required to be engaged in a work activity, as defined by the law, for 20 hours per week
in FY 1997. For an adult in a two-parent family,
35 hours of work are required. The mandated hours of work for single parents increased to
25 hours in FY 1999 and 30 hours in FY 2000. Qualifying work activities include a range of
subsidized and unsubsidized, private and public sector employment. In addition, a limited number of
TANF recipients can meet the work requirement by participating in vocational training and high school
education programs.

WtW regulations do not specifically prescribe the minimum number of hours necessary to meet the
“work-first” requirement. However, WtW’s work-first requirement refers to the TANF concept that
the primary focus is on placing individuals in employment activities. The Department of Labor’s policy
guidance suggests that the number of hours established by a WtW grantee be consistent with the work
requirements established by the local TANF agency.

We visited a national WtW grantee serving 9 states with 27 local sites. At each of the four local sites
we visited, the WtW vocational training/work activity schedules appeared to be designed to meet the
local TANF work requirements rather than the WtW “work-first” requirement. The principal emphasis
was placed on vocational training, independent of subsidized or unsubsidized employment with
voluntary/non-paid work activity (average of 2 - 5 hours per week) being added in an apparent attempt
to meet the “work-first” requirement.

                                                   14
In each of the states we visited, the local TANF agency requires a minimum number of hours of work
per week to maintain TANF benefits. Each state also allows TANF recipients to participate in
approved vocational training in order to meet local TANF work requirements. The grantee’s
vocational training courses may meet the local TANF work requirements but, because they are not
principally employment activities, do not meet WtW’s “work-first” requirement.

Recommendations:

We recommend that the Assistant Secretary for Employment and Training:

                  S       issue specific policy guidance and instructions which fully define and illustrate
                          WtW’s “work-first” requirement,

                  S       incorporate in program guidance a suggested number of work hours as the
                          basis for meeting the “work-first” requirement for WtW purposes, and

                  S       take appropriate action to revise grantee operations which are not in
                          compliance with WtW’s “work-first” requirement.

Agency Response and Auditor’s Conclusions

ETA stated that through extensive public consultations prior to issuing the Interim Rule, the Department
has sought to provide grantees with the maximum flexibility in defining programs for their communities.
ETA also states the TANF holds as one of its basic tenets the empowerment of the states and localities
regarding definitions and program design. DOL current policy guidance encourages grantees to take
into consideration the work requirements established by TANF for the WtW program.

Additionally, ETA stated that work-first has been addressed in the SGAs that were issued. ETA also
plans to issue additional policy guidance which clarifies and illustrates, but does not define or prescribe
a minimum number of work hours. ETA stated they are working with the grantees identified as having
work-first issues to reflect the intent of the legislation. ETA took exception to a statement in our report
that policy guidance suggests the number of work hours established by a grantee should be consistent
with local TANF work requirements.

We concur with the corrective actions being planned by ETA. However, we consider the
recommendations unresolved. It is our opinion that the policy guidance does suggest that work
requirements be consistent with local TANF work requirements. Therefore, illustrations of acceptable
work-first activities should be provided in program guidance to the grantees. Additionally, monitoring
visits should include identification of grantees not in compliance with the work-first requirement so that
corrective actions can be initiated.



                                                    15
5.      Proposed Use of Grant Funds for Business Start-up Operations and Venture Capital
        Appears Improper

We identified two instances in which grantees planned to enter into contractual arrangements with
private-for-profit organizations to finance business operations with WtW funds. Although the grantees
cited job creation through wage subsidization and OJT placements as the basis for these arrangements,
the essence of these contracts amounted to using WtW funds to finance start-up business operations,
with only secondary benefits to WtW participants.

Allowable WtW activities do not include start-up costs of a business or joint venture. Moreover, a
number of potential risks may be incurred providing venture capital to grantees. These risks may
include occupational safety and health liability for a new employer, and a shared responsibility for the
future success and sustainability of the business.

Business Start-up Costs

We were informed by ETA that a grantee’s subrecipient planned to use approximately $800,000 of the
$1.1 million awarded for start-up costs for space, equipment, and non-participant employee wages.
Only about $300,000 will be used for payments to the WtW participants. Start-up costs are not listed
as an allowable activity under WtW regulations. The regulations at 20 CFR 645.220 describe
allowable activities:

                “Entities operating WtW projects may use WtW funds for . . . (a) Job readiness
                activities . . . (b) Employment activities which consist of any of the following: (1)
                Community service programs; (2) Work experience programs; (3) Job creation
                through public or private sector employment wage subsidies; and (4) On-the-job
                training. . . .”

Other allowable activities include job placement services, post-employment services, job retention and
support services, provisions for Individual Development Accounts, and routine activities such as intake
and assessment. Business start-up costs are not included in the allowable activities.

The subrecipient’s budget specifies that a majority of the award will be used for office space, facilities,
plant remodeling, leased equipment, supplies, and office furnishings. The grantee believes that the
subrecipient’s expenditures are allowable, because they are associated with OJT participants and will
contribute to job creation. Although WtW regulations do not specifically define what encompasses
OJT, historically OJT payments were used to reimburse employers for the extraordinary cost of training
participants. The OJT costs normally do not include start-up or day-to-day operating costs of a
private-for-profit entity.




                                                    16
The WtW regulations reference job creation at 20 CFR 645.220(b)(3) as:

        “Job creation through public or private sector employment wage subsidies. . . .”

While this definition may not be comprehensive for all acceptable job creation activities, it does
provide insight as to what is acceptable. We believe the regulation does not provide for subsidization
of a private-for-profit business operation which is not acceptable as a job creation activity.

In November, ETA received a letter from the grantee which stated that $248,851 of its own funds
(which is approximately 25 percent of the WtW grant award) had been advanced to the subrecipient.
The letter also stated that the business was not operational and no training equipment was available for
onsite training of participants. On December 28, 1998, the PIC submitted an invoice totaling
$425,358 to ETA for payment. The invoice was not accompanied by supporting documentation and
was not approved for payment. ETA approved a total of $20,400 for the wages of 17 welfare
participants being trained to operate equipment.

In December, the grantee revised the contractor’s budget amount to $669,095. The revised contract
also changed the emphasis from start-up costs to providing $491,047 for extraordinary OJT training
costs. The lack of a WtW definition for OJT makes it difficult to evaluate the reasonableness and
acceptability of these training costs. Normally, OJT contracts are awarded to cover only the
reimbursement of extraordinary costs incurred by the employer to train participants. Moreover, the
revised cost proposal appears unreasonably high to train only
65 participants, amounting to approximately $7,554 per participant.

On January 19, 1999, we initiated a meeting with ETA officials in the Atlanta Regional Office. ETA
informed us that they will continue to require the grantee to submit invoices and supporting
documentation for related expenditures. At this time, only participant costs (salaries and fringe benefits)
will be reimbursed.

Joint Venture Partnership

While completing fieldwork at one grantee, we were informed of the grantee’s plan to enter into a joint
venture with other local agencies and a private-for-profit employer. This start-up venture included in its
budget $500,000 in WtW funds that would be used for the purchase of manufacturing equipment.
Representatives of the grantee indicated that this equipment would be used to retrofit a manufacturing
operation to produce aluminum windows.

The WtW grant states that a local community-based organization which promotes job placement and
training activities to local residents is planning a joint venture partnership to accomplish its goals. The
venture plans to establish a plant to train and provide job opportunities for WtW participants to



                                                     17
manufacture and install customized aluminum windows. The project is expected to produce at least 45
new jobs and 55 OJT opportunities.

The cost of operating a business is not an allowable activity under 20 CFR 645.220.
Moreover, we share the concerns expressed by ETA regional management regarding the policy of
using public grant monies to finance start-up, private-for-profit, risk ventures. The organization
being formed for this project is not an established “going concern” and has no proven record of
success. Also pertinent is the impact of this organization which will be in competition with other
aluminum window manufacturers in the local area.

Although WtW funds are being required up-front, the benefits to participants will only occur through
job training and OJT activities of the joint venture, which is dependent upon the ability of the business to
secure all the funding necessary to begin operations. Yet, a completed business plan was still in the
developmental stages at the time we completed our postaward survey.

The regulation at 20 CFR 645.265 provides safeguards to ensure that participants in WtW activities do
not displace other employees. Also, regulations require that WtW activities shall not violate existing
contracts or agreements, replace laid-off workers, or replace involuntary reductions in the workforce,
including the number of hours worked. A new entry into the competitive field could adversely affect
other workers in the same field.

Recommendations:

We recommend that the Assistant Secretary for Employment and Training:

        S       issue policy that prohibits the use of WtW funds for start-up costs related to new
                businesses and capital ventures, and

        S       take actions as necessary to de-fund or restructure existing projects that have used or
                intend to use WtW funds for business start-up, capitalization or other unallowable
                costs.

Agency Response and Auditor’s Conclusions

ETA’s response stated that the Office of Welfare-to-Work will issue a policy prohibiting the use of
WtW funds for business start-up costs and will restructure any existing projects. Job readiness
activities will include provisions for WtW participants to start a business. ETA stated that they would
allow approved tool and machinery costs for WtW projects.

ETA’s planned corrective actions are responsive to our recommendations which are considered
resolved, but not closed, pending issuance of revised policy and restructuring of existing projects.

                                                    18
6.      Single Unit Price Billings Circumvent WtW’s Administrative Cost Limitation

While the WtW regulations at 20 CFR 645.235, and the grant agreement itself establish a 15 percent
limitation on administrative costs, we found one private nonprofit grantee had structured its competitive
grant agreement to recover costs on a “single unit charge” basis. According to the grant, all costs,
including operational (administrative) expenditures, will be charged to only one program cost
category.

By way of explanation, the grant states that the grantee’s costs are based on published catalog tuition
prices. The grantee has developed a listing of tuition costs for each vocational training course offered.
The grant agreement does not include detailed explanations as to how individual tuition costs were
compiled. The unit price varies dependent upon the individual class. We were advised that the tuition
price for each class was based upon local site costs, plus regional costs, plus national office costs.
National office and regional office costs appear to include such items as administration, oversight,
technical assistance and indirect costs.

Further, the grant cites the Job Training Partnership Act regulations at 20 CFR 627.440(e)(3) as
allowing “commercially available off-the-shelf training packages” to be single unit charged to the
program category. The JTPA regulations cited by the grantee do not apply to WtW. Even if they did,
the JTPA regulations at 20 CFR 627.440(e)(3) conditions single unit charging of commercially available
off-the-shelf training to subrecipient awards. In this case, the grantee is the primary recipient, not a
subrecipient.

The WtW regulations at 20 CFR 645.235 specifically require that recipient, subrecipient or PIC costs
for “overall program management, program coordination and general administrative functions”
be charged to the administrative cost category. Also, pursuant to 20 CFR 645.230 of the WtW
regulations, the grantee is subject to OMB Circular A-122, Cost Principles for Nonprofit
Organizations. Attachment A.4.a. of Circular A-122 requires that costs be allocated “. . . to a
particular cost objective . . . in accordance with the relative benefits received. . . .”

We believe the failure to separately report administrative expenditures is contrary to WtW
requirements, which intend to limit the amount of funds spent on administrative -- as opposed to
program -- costs. The effect of the grantee’s single unit charging of all WtW costs to the program
category is that ETA will have no basis for determining if the grantee is in compliance with WtW’s
administrative cost limitation. Despite the grantee’s plans to report all costs under the program cost
category, we noted that the grantee’s accounting system has the capability to report WtW costs to the
appropriate cost categories on an actual cost basis.

In addition, the total amount of this grant is included on the contractual line item in the approved grant
budget. The grantee’s explanation of this budget item is that all WtW participants enter into a written
contract/WtW service agreement upon entry into the program. However, as the participants are

                                                     19
recipients, rather than providers of service, we believe characterizing their costs as contractual is highly
misleading, if not misrepresentative.

We also are concerned about provisions in the grant agreement which allow the grantee to bill for
training not rendered. This WtW service agreement states that the grantee will bill the WtW grant for
the cost of short-term training if the WtW participant, after being placed in a job, refuses to return to
training. The project proposal incorporated into the approved grant agreement states that a nominal
charge equivalent to the average cost per placement of the short-term training will be assessed by the
grantee. The grant agreement states that the average cost of short-term training is $2,810 per trainee.
Since short-term training will not be provided if the participant refuses to attend, the effect of this
provision permits the grantee to charge the grant for services not provided to participants.

Recommendations:

We recommend that the Assistant Secretary for Employment and Training:

        S       modify the grant agreement to require the grantee to allocate and report WtW
                expenditures to the benefitting cost categories (administrative and program), and

        S       eliminate the provision in the approved grant agreement that allows the grantee to bill
                for short-term training when an individual, upon initial placement by the grantee, refuses
                to return for training.

Agency Response and Auditor’s Conclusions

ETA responded that the Department will work with the specific grantee to assure it accounts for and
reports WtW expenditures according to benefiting cost categories and program activities in accordance
to the WtW financial report instructions. ETA also stated that the provision which allows for billing of
short-term training (which may not be received) after initial placement, will be eliminated from the grant.

We concur with ETA’s planned corrective actions which are responsive to our recommendations. We
consider these recommendations resolved, but not closed, pending receipt of reported implementation
of planned actions.




                                                     20
                                                                                             Appendix 1
                                                                                             Page 1 of 5
                                   Overview of Principal Criteria


The following is an overview of the principal criteria for the WtW program as summarized from the
WtW regulations.

   ! Purpose of the WtW Program:

       C To facilitate the placement of hard-to-employ welfare recipients in lasting unsubsidized
         employment and self-sufficiency.

       C Provide a variety of placement activities featuring the “work- first” philosophy.

       C To provide a variety of post-employment and job retention services.

       C Target hard-to-employ welfare recipients in high poverty areas.
         (20 CFR 645.110)

   ! Work-First:

       Placing individuals in employment activities before providing support services such as basic
       skills training, child care and transportation. Job readiness, employment activities and
       placement services are the only allowable preemployment activities.
       (20 CFR 645.110) and (20 CFR 645.220)

   ! Funds Spent:

       C At least 70 percent must benefit the hard-to-employ individuals.

       C No more than 30 percent must be used to assist individuals with long-term welfare
         dependence characteristics. (20 CFR 645.211)




                                                  21
                                                                                       Appendix 1
                                                                                       Page 2 of 5
                              Overview of Principal Criteria


! 70 Percent Eligibility Provision:

   (a)    Must meet all three criteria:
          1.    Currently receiving TANF assistance;
          2.    Participant must meet two of the three barriers to employment:
                A.        has not completed secondary education or obtained GED and has low
                          reading and math skills,
                B.        requires substance abuse treatment for employment, or
                C.        has a poor work history (worked no more than 3 of the last 12
                          months);
          3.    Receiving TANF for at least 30 months or will become ineligible for assistance
                within the next 12 months.

   (b)    A noncustodial parent of a minor, if the custodial parent or minor children meet the
          criteria in (a) 1 & 3 and the noncustodial parent meets two of the three barriers to
          employment. (Revised according to the Technical Amendment)

   (c)    An individual who meets two of the three barriers to employment and would be eligible
          to receive TANF, but has reached the lifetime limitation.
          (20 CFR 645.212)

! 30 Percent Eligibility Provision:

   (a)    The individual is receiving TANF and has characteristics associated with long-term
          welfare dependence:
          1.      dropped out of school,
          2.      teenage pregnancy,
          3.      poor work history, or
          4.      other approved characteristics.

   (b)    A noncustodial parent of a minor child, if the noncustodial parent has long-term
          characteristics specified in (a) and the custodial parent is receiving TANF assistance.

   (c)    An individual who has characteristics associated with long-term welfare dependence
          and would be eligible to receive TANF, but has reached the lifetime limitation. (20
          CFR 645.213)

                                             22
                                                                                      Appendix 1
                                                                                      Page 3 of 5
                              Overview of Principal Criteria


! Mechanisms Must be in Place to Determine Eligibility:

   C The grantee must make arrangements with the TANF agency to ensure that WtW eligibility
     determination is based on current information and whether an individual is receiving TANF
     assistance.

   C The assessment may include a determination of the barriers to employment.

   C Information collected by the TANF agency may be valid for up to 6 months prior to the
     WtW eligibility determination.

   C Mechanisms must be in place to determine eligibility for individuals not receiving TANF and
     for those who have reached their lifetime limitation.

   C Eligibility for WtW need not be redetermined after services are received.
     (20 CFR 645.214)

! Allowable Activities:

   (a)     Job Readiness
   (b)     Employment Activities:
           Community Service Programs
           C       Work Experience
           C       Job Creation through wage subsidies
           C       OJT
   (c)     Job Placement Services using vouchers or contracts
   (d)     Post-employment Services:
           C       Basic educational skills training
           C       Occupational skills training
           C       ESL training
           C       Mentoring




                                             23
                                                                                          Appendix 1
                                                                                          Page 4 of 5
                               Overview of Principal Criteria


   (e)     Job retention and support services:
           C       Transportation assistance
           C       Substance abuse treatment
           C       Child care assistance
           C       Emergency or short-term housing
           C       Other supportive services
   (f)     Individual Development Accounts
   (g)     Routine activities such as intake, assessment, eligibility determination, Individual Service
           Strategy and case management. (20 CFR 645.220)

! Job Placement Contracts or Vouchers:

   Job placement contracts or vouchers must include a provision that at least one-half of the
   payments occur after the individual is placed in an unsubsidized job for 6 months.
   (20 CFR 645.230)

! Administrative Costs:

   Competitive grants administrative expenditures are limited to a specified percentage in the grant
   agreement not to exceed a maximum of 15 percent. (20 CFR 645.235)

   Administrative costs are overall management costs not directly related to providing services to
   participants. These costs can be related to personnel and non-personnel activities and may
   include both direct and indirect costs. (20 CFR 645.235) Examples of administrative costs
   include the following activities:

           C       Directors
           C       Personnel
           C       Fiscal
           C       Purchasing
           C       Secretary
           C       Payroll
           C       Budgeting
           C       Monitoring
           C       Management Information System (MIS)



                                               24
                                                                                      Appendix 1
                                                                                      Page 5 of 5
                              Overview of Principal Criteria


! Indirect Costs:

   Indirect or overhead costs are normally charged to administration, except when charged to a
   cost pool and allocated to a cost objective/category directly benefitted.
   (20 CFR 645.235)

! Information Technology Costs:

   The cost of information technology - computer hardware and software - needed for tracking
   and monitoring shall not be charged to administration. (20 CFR 645.235)

   Only the costs for information technology that is “year 2000 compliant” shall be allowable. (20
   CFR 645.235)




                                             25
                                                                                                           Appendix 2
                            WtW Competitive Grantees Included in Postaward Surveys
                                                                                                  FIELDWORK
                                                                                              BEGINNING     ENDING
GRANTEE                                                LOCATION                AMOUNT           DATE         DATE
Work Place, Inc - S.W. Conn                            Bridgeport, CT            $5,000,000      11/9/98    11/19/98
Metropolitan Area Planning Council                     Boston, MA                 4,082,065     11/23/98     12/4/98
County of Union                                        Elizabeth, NJ              5,000,000       8/3/98      8/7/98
Hudson County                                          Secaucus, NJ               4,914,297     11/17/98    11/20/98
Non-Profit Assistance Corporation                      New York, NY               4,871,904      11/2/98     11/6/98
Coalition for the Homeless                             Washington, DC             1,965,601      11/2/98     11/6/98
PIC of Philadelphia, Inc.                              Philadelphia, PA           4,351,247      12/4/98    12/16/98
Resources for Human Development, Inc.                  Philadelphia, PA           1,866,460      8/10/98     8/14/98
Hampton University Career Advancement                  Hampton, VA                4,898,000     10/19/98     11/5/98
CET-NATIONAL WtW PROJECT                               San Jose, CA               4,003,294     10/27/98    12/15/98
Total Action Against Poverty, Inc.                     Roanoke, Va                2,736,272     10/19/98    10/23/98
IAM CARES                                              Upper Marlboro, MD         5,000,000     10/21/98    10/29/98
The NOAH Group, LLC                                    Silver Spring, MD          7,800,000      11/2/98     11/9/98
The Ins. for Responsible Fatherhood                    Washington, DC             4,427,318     10/13/98     11/6/98
National Association of Private Industry Council       Washington, DC             4,912,658     10/19/98    12/14/98
United Way of Central-Alabama                          Birmingham, AL             4,997,966      11/9/98    11/20/98
Mayor's Office of Citizens Employment & Training       Atlanta, GA                5,000,000     10/19/98    10/29/98
Louisville and Jefferson PIC                           Louisville, KY             4,999,898     10/19/98    10/29/98
National Goodwill Industries WtW Consortium            Macon, GA                  5,300,000     11/12/98    11/19/98
Corporation for Ohio Appalachian Development           Athens, OH                 5,000,000      9/21/98     9/25/98
River Valley Resources, Incorporated                   Madison, IN                5,000,000      9/21/98     9/29/98
City of Detroit Employment and Training Department     Detroit, MI                4,860,633      9/21/98    10/21/98
Bethel New Life                                        Chicago, IL                2,739,506     10/19/98    10/30/98
DePaul University                                      Chicago, IL                5,000,000      8/10/98     8/13/98
City of Chicago The Workforce Board                    Chicago, IL                3,000,000     12/10/98     1/19/99
Indianapolis PIC                                       Indianapolis, IN           5,000,000      11/2/98    11/18/98
The City of Little Rock                                Little Rock, AR            5,000,000     10/27/98     11/3/98
Houston Works                                          Houston, TX                5,000,000     10/27/98     11/4/98
Catholic Social Services of Albuquerque, Inc.          Albuquerque, NM            1,343,133     10/28/98     11/5/98
National Goodwill Industries Welfare to Work Consortium San Antonio, TX           5,000,000     11/16/98    11/20/98
Rocky Mountain SER/Jobs for Progress, Inc.             Denver, CO                 1,460,864     11/16/98    11/18/98
CHARO Alliance Welfare to Work                         Los Angeles, CA            3,999,650     11/16/98    11/20/98
PIC of San Francisco, CA                               San Francisco, CA          4,189,231     10/13/98    10/23/98
The Cambodian Family                                   Santa Ana, CA              1,216,167      11/2/98     11/6/98
Oakland Private Industry Council                       Oakland, CA                3,000,000     11/16/98    11/20/98
                                                       Total for 35 Grantees   $146,936,164




                                                            26
                                                                                      Appendix 3
                                                                                      Page 1 of 3

      Suggested Areas for Inclusion in Grantee Written Policies and Procedures


C   The work-first approach restricts the grantee from providing services (except job readiness)
    until the participant has engaged in employment-based activities. Also, the procedures should
    describe allowable activities for qualified participants.

C   Procedures for recording, tracking and reporting the 70 percent minimum/30 percent
    maximum expenditures to the appropriate cost categories.

C   Eligibility requirements for the 70/30 percent programs at the grantee and subgrantee levels.
    Procedures for determining and reviewing eligibility documentation.

C   Proper assessment of skills, prior work experience, employability and other relevant
    information including recordkeeping requirements for each participant.

C   Fully define 15 percent administrative costs limitation and definitions for administrative and
    indirect costs.

C   Cash management procedures for authorized drawdowns, maintaining fund balances, and
    reconciliations for cash and petty cash accounts.

C   Program income procedures for recording and using the income to further delivery of the
    program and the return of income over $250 for interest earned on advances.

C   Documentation requirements for verifying placements and retention to ensure accurate
    reporting. Contracts and vouchers for job placement services must include a provision to
    require that at least one-half of the placement payment occur after an eligible individual has
    been in the workforce for 6 months. (Employer payroll records or wage reports are usually the
    best documentation to verify 6 months on the job.)

C   Procedures for developing and maintaining Individual Development Accounts. The
    procedures should include requesting and receiving approval from the State and/or the DHHS.

C   Identification of allowable and unallowable costs and proper cost allocation from
    Attachment B from OMB Circular A-122 or applicable circulars describing allowable and
    unallowable costs.



                                              27
                                                                                            Appendix 3
                                                                                            Page 2 of 3

       Suggested Areas for Inclusion in Grantee Written Policies and Procedures


C   Procedures for reporting obligated and deobligated costs not recorded in the financial
    accounting system.

C   Procurement and small purchases guidelines and procedures need to be comprehensive.
    Procedures should include or specifically reference many of the more stringent requirements
    mandated by the Federal Government or by the State and local governments. Specifically,
    there should be written procedures that address items such as:

    C Prohibition of “cost plus a percentage of cost” contracting methods.

    C A requirement that procurement and small purchases are made on the basis of full and open
      competition.

    C Cost or price analysis be performed for each procurement action.

    C Profits be negotiated as a separate element in all contracts that allow for profit.

    C Identification of procurements that require prior approval by DOL.

    C Provisions prohibiting actions to break purchase quantities down into smaller components to
      circumvent more stringent procurement requirements.

    C Requirements that Requests For Proposal (RFP) be announced in a publication that has
      general circulation in the competitive area.

C   A provision that prohibits the construction or the purchase of facilities, buildings or capital
    improvements using WtW funds.

C   Approval, acquisition, tracking, inventories and disposition requirements for equipment and
    supplies. Computer software/hardware must be year 2000 compliant.

C   Procedures to ensure that physical inventories are conducted and reconciled at least every 2
    years.




                                                 28
                                                                                        Appendix 3
                                                                                        Page 3 of 3

       Suggested Areas for Inclusion in Grantee Written Policies and Procedures


C   Contractual procedures for awarding contracts to qualified subrecipients including debarment
    assurances and certifications provisions, Federal requirements that must be followed, CFDA
    numbers, statements of understanding and compliance, and record retention.

C   Procedures or a manual for Management Information Systems (MIS) controls, storage,
    access, verification of reported data, and tracing reported data to source documents.

C   MIS contingency plan for disasters and security risks.

C   Monitoring procedures for the grantee and subgrantee levels which includes reviewing WtW
    requirements, scheduling reviews, issuing reports, and resolving findings. Program procedures
    for reviewing TANF information to ensure it was taken within 6 months of eligibility
    determination; an assessment of skills, prior work experience and employability has been
    performed; work first has been implemented before services are provided; and only allowable
    activities have been provided. Financial monitoring procedures would include ensuring that at
    least 70 percent of the funds are spent on the hard-to-employ, administrative costs do not
    exceed the 15 percent or stated limitation, technology costs are within approved limitations, and
    all reported expenditures are allowable costs.

C   Grantee and subrecipient audit and audit resolution responsibilities under A-133.




                                               29
                                                                                                                        Appendix 4
                                                   Findings Matrix                                                          1 of 2

                                                    Finding 1                                             Finding 2
                                    Inadequate     Incomplete/
                                                                     Inadequate       Lack of Formal
                                      Internal     Inadequate                                          Lack of Formal   Lack of Written
                                                                  Internal Controls   Agreement with
              Grantee              Controls Over   Management                                             Eligibility    Policies and
                                                                   Over Financial         TANF
                                       Cost        Information                                          Procedures        Procedures
                                                                      Reporting          Agencies
                                    Limitations     Systems

The Work Place, Inc.                    x                                                                                     x

Metropolitan Area Planning Co.          x                                                                                     x

County of Union                         x

Hudson County                           x                                                                                     x
Non-Profit Assistance Corp.                                              x                                                    x

Coalition for the Homeless              x               x                x                  x                                 x

PIC of Philadelphia                                                                         x

Resources for Human Dev.                x                                                                                     x

Hampton Univ Career Adv.                x               x                x                  x                                 x

Total Action Against Poverty            x               x                x                  x                                 x

IAM Cares, Center for Adm.              x                                x                  x                x                x
The NOAH Group, LLC                     x                                x                                   x                x

The Institute for Responsible
Fatherhood & Family Revital.

Natl Assn of PICs                                                        x

CET                                     x                                x                  x                                 x

United Way of Central Alabama                                                                                                 x

Mayor's Office of Citizens E & T        x               x                x                  x                                 x
Louisville & Jefferson PIC

National Goodwill Industries-GA                                                             x                                 x

Corporation for Ohio Appal.                             x                x                                   x                x

River Valley Resources, Inc.                                                                                                  x

Detroit ETD                             x                                                                                     x

Bethel New Life                                                          x                                   x                x

DePaul University                       x                                x                  x                x                x
City of Chicago--The WFBoard            x               x                                                                     x

Indianapolis PIC                        x               x                                   x                x                x

City of Little Rock                                                                                          x                x

Houston Works                                           x                x

Catholic Social Services - Alb.         x               x                x                  x                                 x

National Goodwill Industries-TX         x               x                x                  x                x                x
Rocky Mountain SER/Jobs for

CHARO Alliance WtW                      x                                x                  x                x

PIC of San Francisco                    x                                                                    x                x

The Cambodian Family                    x                                                                    x                x

Oakland PIC                             x               x                                   x                x                x

                                        22             11                16                14               12                27




                                                                 30
                                                                                                                                 Appendix 4
                                                            Findings Matrix                                                           2 of 2
                                                                     Finding 3           Finding 4            Finding 5             Finding 6

                                                    Grantee
                                                                      Potential                                                 Single Unit Billings
                                                  Operational                          Non-compliance      Start-up Costs and
                                                                  Violations of the                                                Circumvent
                      Grantee                         (with                             with the “Work-     Venture Capital
                                                                     Fair Labor                                                   Administrative
                                                enrollments) at                       First” Requirement   Appears Improper
                                                                   Standards Act                                                 Cost Limitations
                                                 Time of Audit

The Work Place, Inc.                                  Y

Metropolitan Area Planning Council                    N
County of Union                                       N

Hudson County                                         Y

Non-Profit Assistance Corporation                     Y

Coalition for the Homeless                            Y                   x                   x

PIC of Philadelphia                                   Y                                       x

Resources for Human Development                       N
Hampton Univ Career Advancement Resil.                N                                       x

Total Action Against Poverty                          Y

IAM Cares, Center for Administering Rehab.            Y

The NOAH Group, LLC                                   N

The Institute for Responsible Fatherhood              Y

Natl Assn of PICs                                     Y

CET                                                   Y                   x                   x                                          x
United Way of Central Alabama                         N

Mayor's Office of Citizens Emplmt & Trg               N                                       x                    x

Louisville & Jefferson PIC                            N

National Goodwill Industries - Georgia                Y                   x

Corporation for Ohio Appalachian Devel.               N

River Valley Resources, Inc.                          Y
Detroit ETD                                           N

Bethel New Life                                       N

DePaul University                                     N                                                            x

City of Chicago--The Workforce Board                  N

Indianapolis PIC                                      N

City of Little Rock                                   N
Houston Works                                         Y

Catholic Social Services of Albuquerque, Inc.         Y

National Goodwill Industries - Texas                  Y

Rocky Mountain SER/Jobs for Progress, Inc.            Y

CHARO Alliance WtW                                    Y

PIC of San Francisco                                  N
The Cambodian Family                                  N

Oakland PIC                                           N

                                                                          3                   5                    2                     1




                                                                      31
                           Appendix 5




Complete Agency Response




           32
